HHS/OIG, Audit - "Review of Enrollments Under the Head Start Program Administered by the Community Renewal Team, Inc.," (A-01-02-02500)
Department
of Health and Human Services
"Review of Enrollments Under the Head Start Program Administered by the
Community Renewal Team, Inc.," (A-01-02-02500)
December 19, 2002
Complete
Text of Report is available in PDF format (2.91 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to evaluate the enrollment and attendance
levels of the Head Start program administered by the Community Renewal Team,
Inc. (CRT) of Hartford, Connecticut, and the effect these levels had on federal
funding. This final report points out that CRTs actual Head Start enrollment
had a total of 924 students less than its expected enrollment for the period
reviewed. We estimate these missed enrollment opportunities had an associated
value of about $6.5 million. We also noted that CRTs record keeping and maintenance
of program records were inadequate. In addition to the Administration for Children
and Families determining a financial adjustment, we recommended that CRT ensure
its funded enrollment levels are being met by maintaining and improving recruiting
efforts, develop waiting lists at each operating classroom site to ensure vacancies
are filled timely, improve its record keeping and maintenance of program records,
and comply with special conditions imposed in Head Start grant awards.